No. 20-1531
IN THE

Supreme Court of the United States
THE NORTH AMERICAN COAL CORPORATION,
Petitioner,
v.
U.S. ENVIRONMENTAL PROTECTION AGENCY AND MICHAEL REGAN,
ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.
WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 2,332 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on June 3, 2021.

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

